      "'.




      IMPLEMENTATION OF THE STATE

     LEGALIZATION IMPACT ASSISTANCE

     GRANTS UNDER THE IMMIGRATION

     REFORM AND CONTROL ACT OF 1986


                     STA TE   OF   TEXAS




            VIC'SO




'0



      "dla

OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                           OCTOBER 1989
                                                                                                . "




                           OFFICE OF INSPECTOR GENERAL


 The mission of the Offce of Inspetor Genera (OIG) is to promote the effciency, effective­
 ness , and integrty of progrs in the United States Deparent of Health and Human Ser­
 vices (HS). It does this by developing methods to detet and prevent fraud, waste, and
 abuse. Create by statute in 1976, the Inspetor General keeps both the Secreta and the Con­
 gress fully and curently informed about programs or management problems and recommends
 corrtive action. The OIG perform its mission by conductig audits, investigations, and in­
 spections with approximately 1, 300 sta strategicaly located around the countr.


                   OFFICE OF ANALYSIS AND INSPECTIONS


This report is produced by the Offce of Analysis and Inspetions (OAl, one of the thee
major offces within the OIG. The other two are the Offce of Audit and the Offce of Investi­
gations. Inspections are   conducted in accordace with professional stadads develope by
OAI. These inspetions ar tyically short-tenn studies designed to determe    program effec­
tiveness, effciency, and vulnerabilty to frud or abuse.

This study was conducted to determne the effectiveness of Texas ' implementation of the State
Legalzation Impact Assistace Grats funds awarded under the Imgrtion Refonn and Con­
trl Act of 1986.


The report was prepar under the dition of Don McLaughlin , the Regional Insptor Gen­
eral, Office of Analysis and Inspections, Kansas City Region. Parcipating in this project
were the following people:



Kansas City                                  San Francisco
Hugh Owens, Project Leader                   Apryl Wllliams
Raymond Balandron
James Wolf
Alicia Smith

Headquarters                                 New York
Albert 1. N ace                              Lucile M. Cop
Debra Robinson
7 I 





          IMPLEMENTATION OF THE STATE

         LEGALIZATION IMPACT ASSISTANCE

         GRANTS UNDER THE IMMIGRATION

        REFORM AND CONTROL ACT OF 1986

                     STATE   OF   TEXAS




                      Richard P. Kusrow
                     INSPECTOR GENERAL




        OAI-07-800                        OCTOBER 1989

                                 EXECUTIVE SUMMARY


PURPOSE
The purse of this inspetion was to determe how effectively Texas implemented the State
Legalzation Impact Assistace Grats (SLIAG)      progr, to identify potential problems early
in the proess, and to identify goo practices which al States could shar.



BACKGROUND

The SLIAG progr was established under the Imgration Refonn and Contrl Act (IRCA)
of 1986 to reuce the fmancial burden of providig public assistace, public health assistace,
and educational services to eligible legalize aliens. In Fiscal Year (F) 1988, $928. 5 milion
in progr funds were alocated to States, and funds will continue to be alocated thugh FY
1991. These funds also cover adistrtive costs for implementing SLIAG at the State and
local levels. Payments are made for public assistace activities generally available to all
neey individuals and public health assistace services offere under the States ' public health
progrs. The payments also cover educational services designed to assist eligible legalize
aliens to attain a satisfactory level of performance in school and to achieve English language
proficiency and citizenship skils    necessar to beome pennanent residents. The Famly
Support Admnistrtion (FSA) is responsible for adnistering the program.

Because SLIAG was a new progr, FSA realze that problems would surace early in its
implementation. In addition to the norm diculties encountere in creatig new processes
and proedures, FSA recogniz that SLIAG would have unique problems. Some of these
issues include the diversity of programs which SLIAG encompasses, cultu and language
barers associated with the servce population , maintaning confidentiality of informtion , and
the extremely short tie fres for the grt award process.



METHODOLOGY

In response to the anticipated diculties   with implementing   SLIAG, FSA requested that the
Ofce of Insptor General (OIG) conduct reviews in 10 States to determne the progress of
States ' implementing this progr. The FSA selected nine States and the Distrct of Columbia
beause of the varety of program they offere, the number of eligible legalize aliens in the
population, or the amount of the grant. The nine States ar Arzona, California, Colorado,
Florida, llinois, Massachusett, New York, Texas, and Washington.
..




     Interviews based on    strctu discussion guides for each major program     ara, as well as
     documentation fuished        FSA and State and local offcials, built the base of infonnation for
                                 by
     ths repol1. This report represents the review conducte in the State of Texas and reports on its
     implementation of the SLIAG progr as of August 1988.

     Both FSA and Texas were commtted to identifying problems and developing innovative and
     effective solutions for them. Immedately following our on-site visits, FSA was given an
     outline of the State concerns identied in this report



     FINDING:    Since   1987,   FSA ha held national conferences and issued informtion to States
     on implementing the SUAG program.


                  The FSA held several national conferences beginning in 1987 to share
                  information with States on SLIAG legislation , the implications for States, the
                  application process, and the documentation of cdsts.

                  The FSA also provided States with "Question and Answer" issuances and
                  demographic data from the Immgration and Naturalization Servce (IS).


     FINDING: Texas established a strture to identify organizational and program needs.


                  The Executive Dirtor     of the Texas Health and Human Services Coordinating
                  Council is the single point of contact. This council is the grtee agency for
                  SLIAG fundig purses. This argement works very well for a State in
                  which none of the parcipating    agencies   for SLIAG is the grntee agency.


     FINDING: Tex        also took steps to docwnent exenditues and control disbursemenrs.


                  Planed modfications to the State s computerized systems provide for the
                  captu of SLIAG-related costs under distinct SLIAG expenditue codes.

                  One county we visited during the inspection maintaned eligibilty    data on the
                  mai computer at the county auditor s offce. Once eligibilty infonntion has
                  ben obtaned on an eligible legalized alien, this process wi facilitate venfymg
                  the status of the applicant and reportng costs for SLIAG- funded service s,
1.




                   Verifyng eligible legalize alien status for educational programs will be though
                   reviewing the 1- 688, TemporaResident Car, issued by INS. A continual
                   verification process is made to assure that only the intended population is using
                   the SLIAG- funded educational progrms.

                   The Texas Education Agency has modfied the Stadad Application Form for
                   Adult Education to include the costs considere allowable for SLIAG funding
                   puroses. The areas identified on this application for providers of educational
                   servces ar   salar costs, contracted servces, supplies and materials, trvel, and
                   capita outlays.





     Neverteless, there are some funds contrl vulnerabilties.



     FINDING: The FSA's definition of public assistance includes some public health activities
     which created administrative and service delivery problems for Texas   public health agencies.



                  The reclassifcation of public health and menta health programs is important as
                  it requires identifying individuals reeiving servces in order to document
                  SLIAG-related costs. In adtion, asking patients about their legal status may
                  adversely influence their wilingness to access public health and mental health
                  servces.


     FINDING: The FSA application review process created a numer of signifcant problems          for
     Texas. Also, the FSA's application review process interfered with the State s abilty to plan for
     services.


                  Delay in FSA issuing the implementing regulation resulted in the State
                  inabilty to properly plan for SLIAG.



                  Numerous policy misinterpretations and disagreements resulted beause FSA
                  did not provide definitive wrtten instrctions to assist Texas in understanding
                  SLIAG application requirements.

                  The time frames were too short for submittg the initial SLIAG application
                  FSA review and comment, and revisions of the application.

                  implementing SLIAG- funded programs was delayed beause of a significant
                  delay in notifying Texas of the grt awar.
              No formal appeals process exists if progrs or costs ar      denied in   the fIrst level
              reVIew.


FINDING: Conflicting interpretations of the term "public charge "       ha caused uncertainties
in the alien population as to what services they are entitled to receive without fear of
deportation.

FINDING: State guidelines are needed to determine allowable costs in public assistance and
public health assistance.

As mentioned earlier, FSA and Texas have alady initiate action on some of the
recommendations made in this report. Steps have ben taen by FSA to provide States with
more speifc, fonnal guidelines for identifying and documentig actual program and
admnistrative costs. However, adtional actions ar necessar in other aras on the par of
FSA and Texas.

RECOMMENDATION: The FSA should reconsider its position to classif certain public
health services as public assistance and make appropriate adjustments to this position.

RECOMMENDATION: The FSA should mae its application and grani process more
orderly. Specifcally, FSA should


             provide definitive wrtten instrctions on the SLIAG application requirments
             and establish a dialogue with Texas on SLIAG policy, compliance, and reportng
             issues to minimze the confusion that occured in the initial application process;

             ensur that suffcient      tie is allotted to the application proess including Texas
             intial application ,     review and fonnal commnt, Texas ' consideration of
                                    FSA ' s
             FSA comments and negotiation of disputes, and its submission of the revised
             application for FSA approval;

             develop an appeals process to use if program or costs assoiated with providing
             servces ar denied in the initial application process; and

             ensur that the grant award proess for approved applications is timely to permt
             implementing planned SLIAG programs.


RECOMMENDATION: The FSA and the INS should fuher clarif what is meant by
 public charge " and widely disseminate this informtion to the alien populatin who have
raised concerns about its resident statu.
,.




     RECOMMENDATION: The Texas Departent of Humn Services should develop a
     methodology to identify allowable public assistance program costs. Also, the Tex
     Department of Health should develop guidelinesfor all providers of public health assistance
     services indicating those costs that are allowable for SUAG purposes. 





     COMMENTS

     The FSA and the State of Texas both commnted on the drt report. They generaly agree
     with our fmdings and recommndations. Both reported having taen a number of steps to
     improve implementing SLIAG. Their comments ar include as Appendices B and
     respetively.
                                          .............. ........
                                                      ........     ..............
                                                          ............
                                                 .... ......... .....   ........ ...........
                                                                        ........                ...........
                                                                                  . ..... .... ....
                                                                 .........................            ................
                                                                                                                   .......... ......... ........




                                          TABLE OF CONTENTS



EXECUTIVE SUMMARY


I NTRO D U CTIO N .......................................................              ................................................ 1





TEXAS' ORGANIZATIONAL STRUCTURE                                       ............................................. 3




FINDINGS AND RECOMMENDATIONS .................................................................. 5


            Pu bl i c Assistance............................. .............................................                        ............ 6

            Pu bl ic Health Assistance ...                                                                             ..................... 8

            Mental Health.... ......... 

            Ed ucation ....... ........                                           ................................................. 13

            Crosscutting Issues ...                                                             ................... .... ............ ... 15



OIG RESPONSE TO COMMENTS ........................................................................



APPENDICES

            APPENDIX A: Good Practices............................................................ .


            APPENDIX B: FSA' s Comments .......................................................... B-1


           APPENDIX C: Texas ' Comments........................................................

                                      INTRODUCTION



PURPOSE
The Famly Support Admnistrtion (FSA) reuested that the Offce of Inspetor General
(OIG) conduct an inspection in nine States and the Distrct of Columbia to determe how
effectively the States implemente the State Legalzation Impact Assistace Grts (SLIAG)
progr awarded under the Imgration Refonn and Control Act (ICA) of 1986. The
inspection included reviewing mechanisms in place to identify these funds and determning
whether present or projected policies and proedures adere to FSA guidelies. The FSA also
was interested in identifyg potential problems early in the process and any goo practices
which all States could shar. This report presents the results of the inspetion perting to the
State of Texas.


BACKGROUND

Under IRCA, eligible legalize aliens may apply for permanent residency within a I- year
period after they are ftrst eligible (Le., by the 31st month after they receive temporar resident
status) .


This new population will increase the demand for State public assistance and public health
assistace services significantly. It wil also increase the demand for State educational
services as these new residents obtan English language and civic skills neeed to become
  S. citizens.

To help States defray many of the costs of providing public assistace,   public health
assistace, and educational servces to eligible legalze alens, IRCA authorize $1 bilion
each year from Fiscal Year (F) 1988 thugh 1991 for SLIAG grts, less an amount
identied as the "Federa offset. " With few exceptions, eligible legalize aliens are ineligible
for federaly funded public assistace progrs such as Aid to Famlies with Dependent
Childrn (AFC), foo staps, and Medcaid. The "Federal offset" is the estimated cost to
the Federal Government of providig these services or benefits to those few legalized aliens
who ar eligible for them. In FY 1988, the law alocated $928. 5 millon to States.

To receive SLIAG funds, States must apply to the FSA Division of State Legalization
Assistace, which is responsible for approving applications and adnistering the program.
The application must be approved in tota for a State to reeive any SLIAG funds. The FS,\
also provides States with tehnical assistance on policy issues and on the methods used to
determne costs and verify actual costs.
. .




      The basic reuirment for States to claim reimburement is that costs must be alowable,
      reasonable, and allocable. State public assistace and public health assistace program must
      be the same ones available to the general public. States cannot create new program in these
      areas speifcaly for eligible legalize aliens. However, States may create new or addtional
      education progrs for eligible legalize aliens. States may also clai reimbursement for
      progr admnistrtive and SLIAG adistrative costs.
      Reimburement for public assistace and public health assistace is limite only to the amount
      of State and local funds expended for SLIAG-related costs. The maimum SLIAG
      reimbursement for educational services is an average of $500 per year per eligible legalized
      alien. Determning progr adnistrtive costs is made in accordace with the fmal
      regulation at 45 CP 402. 22.

      The FSA is responsible for admnistering the program Because SLIAG was a new program
      FSA realiz that problems would surace early in its implementation. In addition to the
      norm dificulties encountered in creatig new processes and proedures, FSA recognizd
      that SLIAG would have unique problems. Some of these issues include the diversity of
      progrs which SLIAG encompasses, cultural and language baners associated with the
      service population , maintaiing confidentiality of information, and the extrmely short time
      fraes for the grant award process.
      METHODOLOGY

      The FSA selected nine States and the Distrct of Columbia for the inspetion beause of the
      varety of program offered the number of eligible legalize aliens in the population, or the
      amount of the grt. The nine States are Arona, California, Colorado, Florida, llinois,
      Massachusetts, New York, Texas, and Washington. This report reviews Texas
      implementation of the SLIAG progr as of August 1988.

      Pror to conducting the inspetion, the OIG develope     strctu     discussion guides for each
      major program activity at the State and local levels. Interviews were held in Austi with
      appropriate sta, includig the single point of contact and State representatives from public
      assistace, public health assistace, and education. In adtion, appropriate staf were
      interviewed in Travis County agencies. Also intervewed were sta frm providers of
      services in health and education. The purse of these local contacts was to obtan
      information from local governing boes as to their planned implementation of the SLIAG
      progr.
      The informtion obtaned from using discussion guides and documentation furished by FSA
      and State and local officials create a base of information as to implementing the SLIAG
      progr. Information- gathering     included reviewing policies and procedurs established by
      the State for   adnistering   SLIAG funds, and compilng SLIAG application data and
      information on progr parcipation.
, .




                          TEXAS' ORGANIZATIONAL STRUCTURE



      Each State designated a single point of contact.to adnister and coordnate the SLIAG
      progr. For the State of Texas, the contact is the Executive Director of the Texas Health and
      Human Servces Coordiating Council. The State legislatu has designate the council to
      the State agency to apply for SLIAG funds. The council is chared with applyig for these
      funds and distrbutig them to agencies responsible for providing servces to newly legalized
      aliens in accordce with IRCA. The coordiating council is also responsible for coordiating
      State initiatives, application development, continuing oversight, and drwdown of Federa
      funds.

      In Texas, the program components adnistering the SLIAG progr, and their
      responsibilties, ar as follows: the Deparent of Human Services (public assistace), the
      Deparent of Health and the Deparent of Menta Health and Mental Retadation (public
      health assistace), and the Texas Education Agency (education). The inspetion revealed that
      the counties exercise signicant autonomy and control over programs and other matters within
      their respetive jursdictions.


      PUBLIC ASSISTANCE

      The Deparent of Human Servces is responsible for State adistrative functions
      associated with effectively implementing public assistance progrs to be funded by SLIAG.
      An assistat commssioner of the Famly and Childrn s Services has ben appointed to
      admnister functions funded by SLIAG. This sta is respnsible for the agency s support of
      emergency assistace programs admnistere by local agencies. The deparnt, thugh the
      county strctur, wil   grt    benefit payments to eligible legaliz aliens for emergency relief.
      This includes providig utiities, foo, housing, and clothing though vouchers and purhased
      services.


      PUBLIC HEALTH ASSISTANCE

      The Deparent of Health is responsible for the   dit    adnistration of SLIAG funds for
      general public health assistance. This responsibilty rests in four offces in the deparnt:
      Community and Rural Health, State Health Data and Policy Analysis, Grats Management,
      and Budget A coordnator wil be responsible for SLIAG activities. A data analyst will
      provide data analysis of reimburable costs and the eligible population. Financial coordnators
      will prepare and approve contrts with providers, prepar report for the coordiatig
      council , and monitor individual providers to valdate SLIAG fundig.
'"                                                       pp 



                                                                               and

                                             Ret        prde orantion
                                                        progr
                                                             ser di.
                                                              The SLIAG fnncnos
EN,.AL HEAL,.H                  Menta                                The
                                    of menta
                                              heth
                            cotion
            of Menta Health and                                        seces to
he Depar           an
            unde the
,rogrtiC diti              diti
                              of the Budget and Fiscal               health
                                                  assurce. and suppove
     coate
         provide adniusti
                               oversght. quality an cmnunity menta
                                by State faciliti
depar                prgr opte
the menta health centers.
menta retadati
                                                                        funde educatithose
                                                               the SLlG-        nate
     EOUCA110N                                    adisteg          agenCY to
                                                    designate in the
                                                                  by an elementa and
     The -rxas
            in the State.
                            'f
                 Educati Agenc is respnsible
                               positi
                                     ons havefor
                                               natOr is su
                                                                                     and
                                                                 ato. Elementa education is
     prgrs             SLIAG. A SLIAG c

        ons relat to oonato and an adult   educat
     functi
      seonda educati
                                          rnY ves

                                         thougb local scbool distrcts. Adult 

             educati
      senda thugh 63
                     ar prvide p            conti
                            adult education 

      prvided 

                      FINDINGS AND RECOMMENDATIONS



Both FSA and Texas were commtted to identifying problems and developing innovative and
effective solutions for them. Immedately following our on-site visits, FSA was given an
outle of the State concerns identied in this report

FINDING:  Since 1987, FSA has held national conferences and issued information to States
on implementig the SLIAG progr.


             The FSA held several national conferences begining in 1987 to shar
             infonnation with States on SLIAG legislation , the implications for States, the
             application process, and the documentation of costs.

             The FSA also provided States with "Question and Answer" issuances and
             demographic data from the Immgration and Natuzation Service (INS).



FINDING: Texas established a structure to identify organizational and program needs.


            The Executive Director of the Texas Health and Human Services Coordinating
            Council is the single point of contact. This council is the grtee agency for
            SLIAG funding puroses and is the coordinating and oversight entity for all
            State agencies involved in health and human servces. This argement works
            well for a State in which none of the parcipating agencies for SLIAG is the
            grantee agency, and the staf have goo rappon with the varous agencies
            involved in SLIAG.



FINDING: Tex      also took steps to document expenditures and control disbursements.



            Planned modcations to the State s computerized systems provide for the
            captue of SLIAG-related costs under distinct SLIAG expenditu codes.

            One county we visited durng the inspection maintaned eligibilty data on the
            mai computer at the county auditor s office. Once eligibilty informtion has
            ben obtained on an eligible legalized alien, this process will faciltate veriying
            the status of the applicant for SLIAG-funded servces. Weekly reports are
               prepared for the auditor s offce on the servces and benefit dollars involved.
               For futu reference, the local welfar offce can obtan information readly on
               each eligible legalize alien for which eligibilty has been determned.

               Verifyng eligible legalize alien status for educational programs will be though
               reviewing the 1- 688, Tempora Resident Cad, issued by INS. Eah student
               signs in for each class attended using the assigned " A" number frm the card. A
               continual verication process is made to assur that only the intended population
               is using the SLIAG- funded educational programs.

               The Texas Education Agency has moded the Stadad Application Form for
               Adult Education to include the costs considered allowable for SLIAG funding
               purses. The areas identied on this application for providers of educational
               services ar salar costs, contracted servces, supplies and materials, trvel , and
               capita outlays.





Neverteless, there are some funds contrl vulnerabilties.        Findings   and reommendations
concerning these vulnerabilties follow under major topic areas.

PUBLIC ASSISTANCE


Assistance or Service Activities


                        to be funded by SLIAG include Medcaid health car services,
Public assistace services
Medcaid foster car assistace, the Early Periodc Scrning and Diagnostic Treatment
progr, the Famy Planning Title XI           program , the Vendor Drg progr, the Emergency
Nutrtion Tempora Emergency Relief program, and the local pass- though program. The
deparent also admisters the Famly Planning Title XX progr as a public health program
for SLIAG.

No new progrs have ben established. Famly Planning is provided diectly by the State.
Other progr ar    provide thugh counties or providers. The Emergency Nutrtion
Tempora Emergency Relief program is adnistere by the counties and community action
agencies jointly.

A local county offce indicated that services provided ditly by the county or under contrJ((
are nutrtion , utiities, renta assistace, and mecal servces, which include hospitaIJphY"l(l.
services, denta car,   transporttion ,   the battered womens ' program, and indigent burials The
local welfar offce has access to the county auditor       ma    computer data base for eligl lIlty
information.
Documentaton of Eligible Legalized Alien Stats


Eligible legalize aliens will be identified generally in the sam maner as they ar identified
for al other progrs. A few adtional questions wil be asked and the INS car information
wil be obtaned. Periodc reviews wil be made at the counties and providers to assur the
intended population is getting SLIAG- funded services. At the county level , scrning and
in-depth application forms wil be use to obta necessar information.



Program Costs


The State intends to develop guidelines to capture program costs expended for services at the
servcing level. The State wil identify the eligible legalize alien and then tabulate costs
expended for services rendere. When services ar fuished under contrct, quarerly reports
wil be submitted by providers reuestig payment from the State for costs incur. Periodc
sampling wi be conducted at these providers to assur the costs ar correct. Submitted
invoices will be valdated on a sample basis. Two object expenditue codes will be added to
the systems for controllng costs.

At the tie   of ths inspetion ,   the State had provided no guidace to the counties for
determning allowable program costs. However, one county we visited durng the inspection
had initiate action on   its own to identify program costs by establishing cost centers,
identiying foo vouchers for eligible legalize aliens, workng with the county auditor
offce which reords costs and pays bils, setting up line item accounts for each
category-SLIAG- Foo, SLIAG- Rent, and SLIAG-Utilities, and staping " SLIAG" on each
voucher identied for eligible legaliz aliens going to the auditor s offce for payment. This
problem is adessed in grater detal in the section dealng with crosscuttng issues.



Administrative Costs


To identi    adistrative costs, the State wil determe the tota number of persons receiving
the service at the county or community action agency. Then the State wil determne the
number of eligible legalize aliens out of that tota. Finally, the State wil tae that ratio and
multiply it by the tota adistrative cost to determne the shar pertnent to SLIAG. The
deparent has an indit cost allocation rate established by the Deparent of Health and
Human Servces (HS). While the FY 1988 application only include State costs, the FY
1988 updte and the FY 1989 application adde local pass- though adistrtive costs,
which had previously ben overlooked (only State costs had ben include not county costs).
These costs are to be reimbured by SLIAG. The costs were based on data from eight
counties and then projected to all counties.

At the county level, adnistrtive costs will be determned on the basis of a sample. The
SLIAG usage wil be determned as a percentage of the tota adnistrtive costs. There is no
indict cost rate at the county level for public assistace.




Drawdown of Funds and Cash Balances


The procedurs for drawdown ar     being worked out by the coordnatig council. Generaly,
the State does not make cash advances to counties or providers. However, if cash balances
were create at the counties or providers, then subseuent paymnts would be reuced.



PUBLIC HEALTH ASSISTANCE


Assistance or Service Activities


The Deparent of Health provides or contracts for a wide range of public health services,
includig:


             health protection;
             health promotion/health education;
             prevention , detection , and referral of diseases and disabilties;
             ambulatory car/emergency medcal servces;
             short-term institutional care;

             long-term institutional car and alternatives;

             health care costs and health professions;

             statistics buraus; and
             maternal and child health.
. .




      Other public health progrs have ben designate as public assistace progrs for puroses
      of SLIAG. These ar:


                   chronically il and disabled children;


                   habiltation and rehabiltation (kidney health car);


                   health car costs and health professions (primar car);
                   University of Texas system professional services;
                   Texas Tech Health Science Center professional servces;
                   women , infants, and children nutrtion; and

                   maternal and child healthfamly planning.




      No new progrs have ben added beause of SLIAG fundig. The State furishes services
      though its public health hospitas, and contract services are furished though the varous
      county health deparnts. The same services offere by the State ar generally offere at the
      county level. Whether a county contrcts with the deparent depends upon the servces
      rendere. Some servces ar also provided thrugh contrct with other than county providers.


      Documentaton of Eligible Legalized Alien Stats


      For public health servces, the percentage method is use to determne the ratio of eligible
      legalize aliens to the population served. Data from the HHS ar use to determe the
      number of eligible legalize aliens and speial agrcultura workers.

      For public health assistace   progr   considere public assistace, an individual eligible
      legalize alien determnation must be made. Varous INS documents ar being considered for
      use in veriying eligible legalze alien status.

      FINDING: The FSA' s definition of public assistance includes some public health activities
      which created adinistrative and service delivery problems for Texa public health agencies.


      Severa program adnistere       by the Deparent    of Health ar   considered public   assistance
      progrs for SLIAG reimbursement purses.        The distinction is importt beause
      identiying a servce as public assistace requirs documenting costs incur for individual
      eligible legalize aliens served. If a program or servce is considere public health, the
      population ratio method for establishing costs can be used. Applying ths method, costs are
      determned by comparng the percentage of eligible legalze alens using the service to the
percentage of the general population using the sam servce. This percentage is applied to
tota program costs to determne how much can be reimbursed with SLIAG funds.

While there is no quarl with the logic of FSA' s defiition of public assistace versus public
health, the distiction created serious adnistrtive and servce delivery problems for public
health agencies. These agencies, not the public assistace agencies, must develop and
implement new processes for identiying individual eligible legaliz aliens in order to
document costs. Public health offcials in Texas ar concerned that asking patients about their
legal status wil seriously impact the willingness of patients who ar ilegal residents to access
public health services. These peple often enter the countr with highly contagious diseases
and nee tratment immately. The effect of this policy on the public health in general is
not known at this time.




RECOMMENDATION: The FSA should reconsider its position to classif certain public
health services as public assistance and make appropriate adjustmnts 10 this position.


Program Costs


The State wil use a cost allocation method to determne actual costs. This wil allocate all
pertnent, allowable costs to arve at an average cost per client for those public health
progrs considere public assistance. For public health assistace, the percentage or ratio
method wil be used. To arve at actual costs for the 130 public hospitas (public is defined
where ownership is by a county or city or hospital distrct), the State intends to use the
followi g methods:


             For Inpatients - The State wil use cost and bilng information frm these
             hospitas to obtan a daly rate. This rate wil be use to identify the cost of
             servces for an eligible legalized alien.

             For Outpatients - At the time of the dn-site review , the State planned to use
             actual charges for servces to eligible legalize aliens.



The reports submitted by providers of servces (e. , famly planing servces) will list all
revenue sources. This information will enable the State to assur agaist duplicate fundig.
Desk audit proedures wi be instituted to verify that services were rendere and payment
would match the servces rendered.
".




     No guidelines had ben reeived at the county level on determing actual costs. The
     Deparent of Health was workig on them at the tie        of   this review.



     Administratve Costs





     A ratio of eligible legalze   alens to the tota State population wil be use to arve at
     admnistrtive cost. The ratio method descbe above would keep the admistrative costs
     separate.

     For one county health deparent, an indiect cost rate of 23 percent had ben established.
     Puhase orders and invoices (vouchers) will also be use to identify SLIAG adnistrative
     costs.


     Drawdown of Funds and Cash Balances


     The drawdown function is the responsibilty of the coordnating council. The State s policy is
     to issue a 2-month advance to get a new progr underway. Large cash balances could occur
     when SLIAG funds are requested, reeived, and not spent. If such cash balances ar identified
     and the cause is related to SLIAG, subsequent SLIAG funds would be reuced.


     MENTAL HEALTH


     Assistance or Serve Activitis


     The activities of the Deparent of Menta Health and Menta Retardation to be rendered and
     funded under SLIAG are client and famly support services, hepatitis- B screening and
     vaccination , and genetics screening servces. No new progrs have been established by the
     deparent. Plans ar to clai only those costs for services classified as public health
     assistace.

     Other services are provided by the deparent thugh menta hospitas, nonprofit commun1!)'
     menta health centers, and State mental health centers. The deparnt did not apply for
     approval of these services for SLIAG funding beause the services according to FSA POlll:Y
     are considere as public assistace. The deparent either did not want to or could not
     identiy eligible legalze alens seking these services. By law, the deparent is requ1I"d II)
furish these services. If the services were classifed as public assistance, deparent
personnel were concerned that some persons would not apply for menta health services
beause the deparent would have to seek personal data to obtan SLIAG-related eligibilty
information.

Also, if the deparent would choose to claim costs for these services on each of the
approximate 200, 00 persons now receiving services, the State estiates that it would be
necessar to add 55 persons to conduct an additional half hour of intervew tie.



Documentation of Eligible Legalized Alien Stats


The Deparent of Menta Health and Menta Retadation plans to use a ratio or percentage of
the eligible legalze alens to total service population which is to be consistent with the
SLIAG regulations. No distinction is made between eligible legalize aliens and special
agrcultur workers. Both alien categories ar base on data frm HHS, but no effort is made
to separte them.



Program Costs


Actual costs wil be based on budgeted costs and then corrted by actual cost outlays at the
end of the State s fiscal year (August 31, 1988). Vouchers are sent in for payment and
checked to determine if categories of services have been rendered. The proess involves
allocation of costs to each service, number of clients proposed to be served, quarerly reports,
                                                                                fis.
and yearly audits of units (e. g., regional clinics) by certfied public accountat
Modfications wil not be made to the accountig' system as there wi be no diculty
identiying the SLIAG-related services.


Administratve Costs





A ratio of eligible legalze   alens to the tota Texas population wil be use to determine
admnistrative costs for SLIAG purses. For       indit costs, the deparnt wil use the rate
assigned by the cognizt agent.
DrawtWwn of Funds and Cash Balances



The drawdown function wil be the responsibilty of the coordnatig council. The deparent
wil obtai SLIAG funds thugh the interagency voucher system. As reimburement is made
for expenses, there should not be cash balances for SLIAG.


EDUCATION


Assistance or Serve Activities


The Texas Education Agency will reeive SLIAG funding for two tyes of educational
progrs: elementar       and   seonda education and adult education.
Eligible legaliz aliens in elementa and seonda schools will reeive the following
supplementa and basic instrctional services:


             special language programs;
            remedal programs in the basic    skils;

             guidance and counseling services; and

             special materials and supplies.




Adult education   wi include English, language instrction, and citizenship traiing.

Documentaton of Eligible Legalized Alien Stats


The norm enrllment proess will be used for eligible legalize aliens entering elementar
and seconda schools. For adults, the Texas Education Agency wil reuest the 1- 688,
Tempora Resident Cad, and the " A" number be obtaned. The fIrst surey for data on
eligible legalize aliens in elementa and seonda schools was taen in May 1988 (an
update was planned to be conducted in August/September 1988). The agency had to wait for
August/September 1988    enrllnts   to obtan adtional inormation. The surey showed
38, 00 eligible legalize alens; FSA then reuced that number to 32 00 and then to 13, 00.
,.




     The reason for this reduction was that most school distrcts could not meet the statutory and
     regulatory requirements for funding. The agency estimated about 390,00 adults wil qualify
     for enrllment by October   1988.


     At the provider level, the documenting involves verifying eligibilty status thugh the 1- 688
     card issued by INS. All students will sign into each class using their assigned " A" number.


     Program Costs


     For eligible legalize aliens at the elementa and seonda levels, the State wi use      the
     average cost per student ($2, 500) per year to document progr costs. The agency     sta
     indicate that this is the only Federa program where an average cost has ben    use. The
     agency is concerned the Fedral Government wil not allow an average cost, forcing them to
     identiy actual cost. In adtion, a student neeng bilingual training wi cost about $700
     more. For adults, the cost of education is about $3 per hour, and using tutors would incrase
     this figu. Any program income would be deducte from SLIAG paymnts. Invoices
     submitte by contrctors would also be reviewed by fISCal agents. The Stada Application
     Fonn for Adult Education contans information covering allowable costs     such as salar,
     contrcted services, supplies and materials, travel , and capita outlays. Al costs must be
     reasonable, alowable, and allocable to SLIAG.


     Administrative Costs





     Dirt adnistrtive costs will be determned by using time sheets designed to captur
     expended time on a day, weekly, or monthly basis. For indict costs, the deparent wil
     use the rate assigned by the cognizat agency. Using time studies is consistent with existing
     procedurs for other progrs adnistere by the deparent.



     Drawdown of Funds and Cash Balances


     The drawdown functions ar performed by the coordnating council. The deparent can
     advance up to 25 percent of the estimated cost for the school year at the beginnig of the year
     to some school distrcts for elementa and seonda educational servces to eligible
     legalize aliens. Cash advances ar also made to providers of adult education services. No
     request must be made for this advance. Information on cash balances at providers and
     educational institutions would be included in their regular monthly or quarerly reports. If
large cash balances were noted, the next alotment to the provider would be reuced. The
SLIAG funds wil be expended on the basis of costs ,incur.

CROSSCUTTING ISSUES

The lateness in issuing the final regulations has caused problems for the State. The State
could not awar contracts until the regulation proess was finalize. This has reuced the
period of retroactivity durg which providers would clai SLIAG funds.




FINDING: The FSA application review process created a nuer of signifcant problems for
Texas. Also, the FSA's application review process interfered with the State s abilty to plan for
services.


             Delay in FSA issuing the implementing regulation resulted in the State
             inabilty to properly plan for SLIAG.



             Numerous policy misinterpretations and disagrments resulted beause FSA
             did not provide definitive wrtten instrctions to assist Texas in understading
             SLIAG application reuirments.

             The time frames were too short for submitting the initial SLIAG application,
             FSA review and comment, and revisions of the application.

             Implementing SLIAG- funded progrs was delayed because of a delay in
             notifying Texas of the  grt
                                      award.

             No formal appeals process exists if progrms or costs ar   denied in   the first level
             review.



Accordig to fial   regulations published Marh 10, 1988, States had to submit the FY 1988
application no later than May 16, 1988. Revisions to the application had to be submitte by
July 1, 1988, and the FY 1989 application had to be submitt no later than July 15, 1988.
Applications were to conta brief descrptions of the States progrs or services, estiates
of the States ' SLIAG-relate costs for each progr or activity for that parcular fiscal year
(includig information on the number of eligible legalze alens residing in the State), and a
brief explanation of the methodology used to estimate these costs.
Due largely to these short ti fres, FSA provided no fonnal feeback on revisions
necessar in the Texas FY 1988 application. The informtion was transmitted by telephone or
in meetings. The time    fres to make necessar revisions did not accommodte the
organzational strctu or the nee to communicate with or sek approval from the progr
components impacted by revisions reuested by FSA. The Texas grant awar was delayed
approximately one month due to an errr     by the Grants   Admistration sta in sending the
award to an incorrt addrss.

The FSA would not grt paral funding nor would FSA conditionally approve applications.
If changes were not made in accordace with FSA suggestions, the enti application was
disapproved. In adtion, FSA did not provide Texas with an appeals process when programs,
costs, or methodologies were not approved. Texas had no reoure other than to delete the
progr entily from its application or forfeit all of the SLIAG funds for that fiscal year.



RECOMMENDATION: The FSA should mae its application and grant process more
orderly. Specifcally, FSA should


               provide definitive wrtten instrctions on the SLIAG application reuirments
               and establish a dialogue with Texas on SLIAG policy, compliance, and reporting
               issues to minimize the confusion that occur in the initial application process;

               ensur that sufficient tie    is allotted to the application proess including Texas
               initial application, FSA' s review and formal commnt, Texas ' consideration of
               FSA comments and negotiation of disputes, and its submission of the revised
               application for FSA approval;

               develop an appeals process to use if progr or costs associated with providing
               servces ar denied in the initial application process; and

               ensur that the grtaward proess for the approved applications is timely to
               permt implementing planned SLIAG programs.



FINDING: Conflicting interpretations of the term "public charge "       ha caused   uncertainties
in the alien population as to what services they are entitled to receive without fear
deportation.
State and local offcials report that the alien population often misconstre the term "public
charge. " These alens ar afaid that accepting certn alowable SLIAG progr benefits ,.
could subject them to possible deporttion. To compound this problem, State program
managers indicate that some Texas counties have reeived conflcting information from local
INS offces on the subject of "public chare. " This has cause varous interpretations of what
constitutes "public charge " by different counties.

RECOMMENDATION: The FSA and the INS should fuher clarify what is meant by
 public charge " and widely disseminate this informtion to the alien population who have
raised concerns about its resident statU.

FINDING: State guidelines are needed to determine allowable costs in public assistance and
public health assistance.

At the time of this inspection, the State had not inform the counties of FSA guidelines for
determning allowable costs in public assistance program under the SLIAG program.
However, since the State had not issued any guidelines, the county visited durg the
inspection was moving ahead to develop its own guidelines for determning these costs.

Also, guidelines had not ben reeived at the county level covering determing actual public
health assistace program costs. County health sta indicate that they were told the
Deparent of Health was working to draw up these guidelines.

The State of Texas should recognize that there ar limitations on the diection that FSA can
provide which wil cover the varous internal processes and operations of every State.
Guidelines must be flexible enough to accommte varations in State systems and internal
processes. Ultimately the State, as the grantee, is responsible for development and
implementation of SLIAG progr activities, and for the fiscal documentation of costs and
expenditurs.
RECOMMENDATION: The Texa Departent of Humn Services should develop a
methodology to identif allowable public assistance program costs. Also, the Texas
Department of Health should ensure that all providers of public health assistance services are
informed of FSA guidelines for   identifing allowable   costs.
                          OIG RESPONSE TO COMMENTS


The FSA and the State of Texas both commnt        on the drt report.


THE FSA


The FSA has generally  agr    with the OIG report findings and reommendations. The FSA
has taen a number of steps to improve implementig the SLIAG progr including
clarfyig program policies and proedures. The State had severa concerns about how FSA
admnistered the program. We have moded certn aspets of the report base on FSA'
comments.

The FSA questioned the statement that the new population would significantly incrase public
assistace and public health assistace servces. Early estiates indicated that large numbers
of aliens would qualy to access the SLIAG program. The report     reogni       that inonnation
obtaned durg the review determned that substatial incrases in workoads and
expenditurs could occur in these aras as well as in education. However, we understad from
reent discussions with States ' offcials that demand for services nationaly is faling behind
earlier projections.

The FSA' s definition of public assistance included some public health activities which crated
admnistrative and service delivery problems for Texas public health agencies. The OIG
recommended that FSA reonsider this position.


The FSA replied that they se this position priary    as an issue of identifying costs and that
they will work with the States to develop method ,of docume,ntig costs which ar consistent
with FSA' s respnsibilties as stewars of public funds. We believe that FSA' s actions to
identiy alternative method is responsive to our concerns.

We contiue to believe that a strct interpretation which permts public health costs to be
clai     only for speifc eligible legalze alens is burdensome to the States. In many cases,
the interpretation would reuir considerable revisions to the States ' system or statutory
requirments. However, we do agr that FSA' s use of alternative systems, such as the Cost
Documentation System and a revise population ratio method system which reflects usage,
would be a positive effort to enhance cost effectiveness without reuirg States to develop
new systems or make considerable revisions to present systems. The population ratio method
could be revise to consider not only eligible legalize aliens in the servce population but
also usage of those servces by these aliens based on information alady obtaed from
progr experience. Where appropriate, other alternatives might be use      which would
produce a more effcient system for the States and addess congrssional intent that the   States
would not be required to establish new or elaborate systems.

We report that no fonnal appeals proess exists if   progr costs ar denied in the ftrst level
review. We agr with FSA' s statement that the Grat Appeals Boar does have jursdction
over matters for withholdig and repayment of SLIAG funds. However, it was the States
concern that an effective appeals mechanism be in place for issues involving program or
costs at the ftrst level of FSA' s review in the application proess.

The FSA made numerous comments to clarfy certn matters of fact, policy, or procedure.
We have included these comments verbati in Appendix B.


The Stae of Texas





The State has generaly agree with the OIG report findings and reommendations. Their
comments are included verbatim in Appendix C. Since the time of the on-site review, the
State has taen significant steps to effectively implement the SLIAG program thugh
procedur and system changes.



The State commnts indicate that guidelines have ben develope for determning allowable
progr costs for use by county agencies and providers of servces. In adtion , Texas has
clarfted State organizational responsibilties concerning implementig the SLIAG progrm
where several State agencies are involved.

Recognition is made of the State s concern regarding classifying some public health assistace
activities as public assistace. Reference should be made to our comments above concerning
this issue as adssed to FSA.
 APPENDIX A



GOOD PRACTICES

A number of practices have been identified that other States could shar.




       The Executive Director of the Texas Health and Human Services Cordnating Council
       is the single point of contact. This council is the grtee agency for SLIAG fundig
       purses and is the coordnating and oversight entity for al State agencies involved in
       health and huma services. This argement works well for a State in which none of
       the parcipating agencies for SLIAG is the grante agency, and the sta have goo
       rapport with the varous agencies involved in SLIAG.


       The Travis County Welfar Offce maintaned eligibilty data on the main computer at
       the county auditor s offce. Once eligibilty information has ben obtaed on
       eligible legalized alien, this process wil faciltate veriying the status of the applicant
       for SLIAG- funded servces. Weekly repons ar prepared for the auditor s offce on
       the services and benefit dollars involved. For futu reference, the local welfare offce
       can obtan information readiy on each eligible legaliz alien for whom eligibilty has
       ben determed.




       Verifying eligible legalizd alen status for educational program wil be though
       reviewing the 1- 688, Tempora Resident Car, issued by INS. Each student signs in
       for each class attended using the assigned " A" number from the card. A continual
       verication process is made to assur that only the intended population is utilizing
       SLIAG- funded educational progrs.


       The Texas Education Agency has moded the Stadad Application Form for Adult
       Education to include the costs considered allowable for SLIAG fundig purposes. The
       areas identied on ths application for providers of educational services ar salar
       costs, contracte services,   supplies and materials, trvel ,   and capita outlays.



      Planned modfications to the State s computerize systems provide for the capture of
      SLIAG-relate costs under distinct SLIAG expenditu codes.
 APPENDIX B



FSA' S COMMENTS

     ,-­
"-'"                                                :.
                                                                                            APPENDIX B

                     DEPARTMENT Of HEALTH & HUMAN SERVICES
f"                                                                           Family Support Adminislraliol1




                   June 27. 1989
                                                                             Memorandun
          Dale:

          From:      cting Assistant Secretary

                       f or Family Support

          Subject: OIG Draft Report: Implementation of the State Legalization
                  Impact Assistance Grants Under the Immigration Reform and Control

                   Act of 1986 - State of Texas (OAI-07-88-00449)
          To:
                   Richard P. Kusserow
                   Inspector General



                  At tached are the Family Support A

                                                      inistration comments On the
                  above draft report. Many of our comments   are tech ical
                  due to the complexity of the legislation and the fact    that r.a tU
                  SLIAG program was very new at the time of the                 the
                                                                       review.
                  We appreciate the assistance and cooperation we have received

                  from you in response to our request to conduct this round of

                  rev iews of the SLIAG program. The reports we received are very
                  useful to us in understanding how States are implementing the

                  program.



                                                                  De Bert

                  l: t tachren t
                 OIG DRA REPORT: Implementation of the
               state Legalization Impact Assistance Grants
      Under    the Immigration Reform and Control Act of 1986 ­
                             state of Texas
 The Family Support Administration' scomments are divided into
 three sections: Comments  on background information and other
narrative material that does not relate directly to the draft
report' s findings, comments on the findings, and responses to the
draft report' s recommendations.


Narrative:
Page 1 (Background) -- The draft report says, "This new

population will increase the demand for state public assistance

and public health assistance services significantly.

                                                       The
report isn't clear whose conclusion this is or upon what   draft

                                                         data and

analysis the conclusion is based. The final report should

clarify these points.


In the course of implementing SLIAG, we have discovered that

neither state and local public health programs nor, with few

exceptions, public assistance programs, inquire about legal

status.   This suggests . that at least Isome , aliens were using these
services before legalization and that newly legalized aliens do
not represent a " new population" for public assistance and public
heal th assistance services. Preliminary cost data from States
suggests that newly legalized aliens are accessing public

assistance services at rates far lower than the general

population.   There are indications that a backlog of public
heal th needs existed and was identified during the medical
examinations required of all applicants for legalizations.

However, there is no data to suggest that, other than this

temporary bulge in demand for public hea' lth services, newly

legalized aliens will generate a significant increase in demand

for publi'c   health assistance or public assistance services.
Page 2 (Background) -- The draft report says, "states must

develop a method acceptable to FSA for determining administrative

costs. " We note that several methods for determining the share

of administrative costs in ongoing programs that are allocable to

SLIAG and which are acceptable 

                                 a priori are specified in the

regulation at 45 CFR 402. 22 (b) . The process of determining
administrative costs (those costs incurred in administering the LIAG
SLIAG grant itself), like all costs associated with administering
HHS grants , is governed by 45 CFR Parts 74 and 92 and relevant
OMB circulars.

Page 12 (Education -- Documentation of Eligible Legalized Alien
status) -- The draft report says that the State survey of
eligible legalized aliens in elementary and secondary schools
showed 38, 000 eligible legalized aliensl "FSA then reduced that
number to 32, 000 and then to 13, 000. The reason for this
reduction was that not all eligible legalized aliens in
elementary and secondary schools will need the services funded by
SLIAG.
That statement is incorrect in several respects. Not all school
districts or all eligible legalized alien children within a
school district are eligible for funding. Therefore, Texas'
ini tial estimates were unrealistically high because they failed
to consider the statutory and regulatory limitations on the use
of SLIAG funds for this purpose.   Because it applies the
definitions and provisions of the Emergency Immigrant Education
Act (EIEA) to use of SLIAG funds for educational services, IRCA
stipulates that SLIAG funds may be expended for educational
services only on behalf of eligible legalized alien students who
have attended U. S. schools for fewer than three complete academic
years.   Additionally, to receive any SLIAG funding for elementary
and secondary education, a school district must have 500 eligible
legalized alien students with fewer than three complete academic
years in u. s. schools, or such students must make up 3 percent of
students in the school district.

In evaluating the State' s estimated number of eligible legalized

alien students, the only factor we considered was the likelihood

that the estimated number was a reasonably accurate reflection of

the number of students that could be expected to meet the above

requirements. We used this criterion because, under the SLIAG

allocation formula, a State' s estimates of its costs directly

 ffect the amount of money that it and every other state
receives.   (Half of funds are allocated on the basis of costs.
Thus, we had a responsibility to ensure that estimates were
reasonable, and to apply the same criteria to all states. The
criteria employed in our review are specified in the SLIAG
regulation at 45 CFR 402. 44.

The state education agency' s approved FY 1988 application
estimated that there would be 14, 808 " countable" eligible
legalized alien children in Texas elementary and secondary
school. This number represented one-third of 44, 425, the total
number of eligible legalized alien children 6-17 in the state of
Texas.  (Subsequent information from the Texas Education Agency
indicates that this estimate, in fact, was mucb too high.

Page 13 -- The draft report says that the lateness of issuing

final regulations (which were published March 10, 1988) "has

reduced the period of retroactivity during which providers would

claim SLIAG funds.

  The SLIAG regulation was delayed because we received so many

  comments on the proposed rule , which was published in August

  1988. The comments were far-reaching, and deserved full and.

  careful consideration. This process took time, but we believe

  the final product was Duch improved as a result. 

                                                     he range of

  activities for which SLIAG funds could be used was expanded

. dramatically in the final rule, as a result of our analysis and

  consideration of comments we received. The
                                              final
    opted a more equitable method for allocating 
 rule also

                                                                funds.
 We do not bel ieve that the timing of the final regulation'
 publ ication adversely affected States' ability  to claim
                                                           costs.
 SLIAG funds are available for public assistance and educational

 services costs incurred from October 

 assistance costs incurred from May    1, 1987, for public health

                                    5,  1987, and
 administrative costs incurred after November  
 for SLIAG

                                               6, 1986. The

 methodologies for establishing costs did not change   from the

 proposed to the final rule. We have worked extensively with

 States to help them establish costs for periods during which they
 did not have tracking systems in
                                                       place.
 Findings:
 Finding:	              Since 1987, FSA has held national conferences and
                        issued information to States on implementing the SLIAG
                        program.
 Comment:	             Since the OIG' s onsite visits in August
                                                                1988,
                       continued to provide assistance to States.    
 we have
                       conducted several more workshops and meetings Wetohave
                                                                           assist

                       states in implementation. In October 

                       compendium incorporating the extensive 1988,
                                                               formalweguidance

                                                                        issued a

                       previously provided to States on methods of cost

                       documentation. We also have provided assistance to

                       individual States in the form of correspondence,
                       telephone consultation, and onsi te technical
                       assistance. We are in the process of conducting
                       initial program reviews of the major States, including

                       Texas, which we visited in April 1989. We
                                                                   requestwith

                       the final report reflect this continuing dialogue     that

                      States.
Finding:	              Texas also took steps to document expenditures and

                       control disbursements.

Comment:	 On page 6 , the draft report lists Family Planning under
                      the Public Assistance category. Family Planning is
                      included in the statutory and regulatory definition of
                      public health assistance, and is included under the
                      public health assistance category in 

                                                           Texas' approvej

           application.   The final report should correct this
           statement.
           Page 8 of the draft report says, "For public health

           assistance programs considered public assistance, an

           individual eligible legalized alien determination must

           be made.   That statement is incorrect and should be

           corrected in the final report.


           The regulation allows costs for public assistance

           programs to be established by (1) establishing costs

           associated with identified eligible legalized aliens,

            (2) using a statistically valid sample of the program'

           caseload, or (3) " any other reliable method of cost
           calculation, subject to Federal review" (45 CFR
           402. 21). We are making available to states a Cost
           Documentation System, initiated by HHS, which will
           enable them to establish costs based on a blind match
           of social security numbers of program participants.
           have worked with States to develop other alternative
           methods that do not involve inquiring into the
           immigration status of any individual. We have
           distributed information on these alternative methods to
           States.
Finding:   The FSA' s definition of public assistance includes some
           public health activities which creates administrative
           and service delivery problems for Texas public health
           agencies.
Comments: The draft report is in error in saying that the

           definitions of pUblic health and public assistance

           create service delivery problems for Texas public

           health agencies. By law and regulation, all programs

           or activities under both categories must be generally
           available. In  practice, this  means that SLIAG funds
           are available only to reimburse costs in on- going,
           generally available programs. In most programs,
           immigration status is not a condition of  eligibility.
           If the alien is eligible for services, he or she would
           receive those services, regardless of whether the costs
           were reimbursed under SLIAG. The final report should
           clarify this point.

           The draft report notes that "there is no quarrel with

           the logic of FSA' s definition of public assistance

           versus public health, " but does not explain that logic.
           The final report should explain that the regulatory
           definitions of public assistbnce and public health are
           based directly on IRCA.
 Programs of public assistance are defined as programs
 that " provide  for cash, medical or other
 assistance.. . designed to meet the basic ' subsistence Ot
 heal th needs of individuals " (section 204
                                              Cj) (2) (A)
 emphasis added). Con istent with IRCA' s explicit
 inclusion of medical assistance under the public
 assistance category, State or locally funded programs
 that provide medical treatment to needy individuals are
 public assistance.
 IRCA defines programs of public health assistance as

programs which " provide    public health services,
 including immunizations for immunizable diseases,

testing and treatment for tuberculosis and sexually-

transmitted diseases, and family planning services"

 (section 204 (j) (3) (A) ). These statutory definitions

and the legislative history indicate that Congress

intended to allow certain traditional public health

functions under the public health assistance category

and medical assistance to the needy under the public

assistance category. In      implementing SLIAG, we have
followed that statutory framework. We have defined
public health assistance as, among other things,
programs or activities that " are provided for the
primary purpose of protecting the health of the general
public"  (45 CFR 402. 2).    The scope of programs included
in that regulatory definition of public health

assistance goes far beyond the specific activities

listed in the Immigration Reform and Control Act of

1986 CIRCA), which created SLIAG.
Regarding the draft report' s concern that aliens "
                                                    often
enter the country with highly contagious diseases and
need treatment immediately, . the final report should
note that the treatment of dangerous contagious
diseases, including tuberculosis and sexually
transmitted diseases, is included in the statutory and
regulatory definition of public health assistance.

The public assistance/public health assistance
categorization issue is primarily one of cost
documentation requirements, not the allowability of
costs associated with any particular health program.
Texas would like to use the population ratio method to
establish costs for all programs run by the Department
of Health. Implicit in this  method is the assumption
that eligible legalized aliens will access programs in
the same frequency and at the same cost as the general
population. We do not believe this assumption to be

appropriate for medical assistance programs that
provide treatment to needy individuals. To the
contrary, the information that we have to date
..




                   indicates that allowing Use of the population ratio
                   method for these programs generally would overstate
                   costs , dramatically in some cases. However
                   be willing to allow Use of the population ratio
                                                               , we method

                                                                    would

                   for any program for which there is an 


                                                         empirical
                   to indicate that doing so would not overstate   basis
                                                                 costs.


                   The regulation also permits establishing costs Using

                    any other reliable method of cost calculation, Subject

                   to Federal review.

                   work with States      We have continually offered to

                                    , including Texas, to devise acceptable

                   alternative methods.


                  FSA realizes that many public assistance and public
                  heal th programs don't routinely collect information on
                  immigration status
                  collect social security
                                    , but ,numbers.
                                            we have found that many do
                  and devoted substantial staff resources
                                                    That isto why
                                                               developing  a
                                                                  we funded

                  system that will match the social security numbers of
                  program participants with those of newly legalized
                  aliens.  This system will give States information on
                  the number of newly legalized aliens participating in a

                 program and the cost of services to them. 

                 available and allows States to establish costs    for
                                                               It is   FY

                                                                     now

                 1988 as well as current and future years. 

                 sent State SLIAG Single Points of Contact suggestions

                                                              Recently, we

                 for other Possible methods for establishing costs.

                 None of these alternative methods would require setting

                 up new administrative mechanisms or checking status of

                 all program participants.


                 We have worked closely with Texas to develop
                 methodologies to document costs for all programs in the
                 State' s approved application.
     Finding:    The FSA appl ication process created a number of
                 significant problems for Texas. Also

                application review process interfered,with the State'
                                                       the FSA'

                ability to plan for services.

     Comment:     The draft report says that the time period for

                  sUbmission, review

                  initial application, revision and approval
                                       was too short.   
      of the

                  would have been preferable to have hadWe a longer
                                                           agree     period

                                                                  that  it

                  of time between the PUblication of the final regulation

                  and the deadline for submission and approval of FY 1988

                 and FY 1989 applications. 

                 should note that             However, the final report

                allocation formula, one major the
                                  , because  of     way for
                                                 reason  IRCAthe
                                                              setcompressed
                                                                   up the

                timeframe
                             as that we could not award funds to any
                State until all States' applications had been
                In order for us to run the allocation formula approved.
                                                                  , which
             IRCA requires to include estimates of costs, we must

             have approved estimates for all States before we can

             calculate States' allocations.
             The draft report says that " numerous policy
             misinterpretations and disagreements resulted because
             FSA did not provide definitive written instructions to
             assist Texas in understanding SLIAG application
             requirements. Had there been more time, we would have
             communicated more extensively in writing. However, the
             final report also should note that some of Texas'
             misunderstandings resulted from the State' s failure to
             provide us initially with complete information about
             the programs and activities included in its
             application. The lack of adequate information required
             extensive dialogue and subsequent revision of the
             State' s application.
             The report says no formal appeals process exists if

             programs or costs are denied. The Grant Appeals Board

             has jurisdiction over issues related to the withholding

             and repayment of funds. For other matters, the State

             may follow normal procedures for disagreeing with an

             agency finding.
 ecom."tendations :
Thr e of the draft report'     s recommendations propose action on the
part of FSA:


Recommendation:	 The FSA should reconsider its position to
                      classify certain public health services as
                      public assistance and make appropriate
                      adjustments to this position.
Response:	            As discussed above, the," primary issue relating
                      to the definitions of public assistance and
                      public health assistance is one of cost
                      documentation. Texas wants to use the
                      population ratio method for all programs run by
                      its Health Department. The final report should
                      clarify whether the OIG is recommending that we
                      allow use of the population ratio in programs
                      where, as discussed above, its use would likely
                      overstate actual costs.
                      We believe that using the population ratio

                      method for all heal th depar ment programs would

                      be inconsistent with our responsibility to

                      exercise fiscal responsibility in administering

                      SLIAG funds. However, we recognize that some

                      States may encounter difficulties in

                   establishing actual costs , especially where ELAs

                   are a small percentage of a State'
                                                      s population

                   or for programs that few ELAs access. 

                                                           We will

                   continue to work with States to ensure that  a
                   method is available to allow them to establish
                   actual costs for each program in their approved
                   applications , consistent with our
                   responsibilities as stewards of public
                                                           funds.
Recommendation:    The FSA grant process should be made more

                   orderly.
Response:          The draft report' s recommendation refers to the

                   FSA grant process , but the specifics indicate

                   that it is referring to the SLIAG application

                   and grant award process. The language of the

                   recommendation should be more specific.


                   We agree that the application process should be

                   conducted in a more orderly fashion than was the

                   case for the initial sUbmissions. 

                                                       As the
                   report indicates, the time frames for      draft

                                                          the FY

                   1988 and FY 1989 application processes were

                   necessarily short. In effect, the States and we

                   had to complete two appl ication processes in

                   less than a year.  We do not expect similar

                   problems for the FY 1990 and FY 1991 application

                  processes.
                  To ensure that States have adequate time to

                  prepare their FY 1990 applications based on

                  empirical data, we have extended the deadline

                  from July 15 to October 1.   Additionally, we

                  have encouraged States to submit as early as

                  possible any new programs

                  and have advised them that, they
                                              questions, or issues

                                                   may submit all

                  or portions of their applications at any
                                                           time.

                  In order to reduce the possibility of

                  misunderstanding, we have advised States that we

                  will communicate all substantive questions and

                  concerns on their FY 1990 applications in

                  wri ting, as was done for States' end-of­

                                                           year
                  reports. We issued extensive written guidance

                  on the FY 1990 application process and the

                  standards we will apply.


                  The draft report also recommends that we develop
                  an appeals process to use if programs or costs
                  associated with providing services are den
                  the initial applications process.          i ej
                                                      We do
                  believe such a process is necessary. The
 not

                   Department' s Grant Appeals Board has
                   jurisdiction over cases involving the repayment

                   or withholding of funds. Normal.

                   the Department are open to States channels within

                                                      that disagree

                   with decisions made during the Course of 

                   application review.

, Recommendation:
 The FSA and the Immigration and Naturalization
                   Service (INS) should further clarify what is
                   meant by " public charge" and widely disseminate
                   this information to the alien population who

                   have raised concerns about its resident 

 Response:                                                  status.
                   Under IRCA and the Immigration and Nationality
                  Act , the INS alone is responsible for
                  determining whether individuals are likely to

                  become public charges. 

                  policy on this issue. FSA cannot establish

                  information directly to Nor
                                           the can FSApopulation.

                                                alien  disseminate

                  INS is precluded by IRCA from providing names

                  and addresses of eligible legalized aliens to

                  outside agencies.


                  However, we agree that it is important that all
                  concerned know INS policy on the public charge
                  issue.  INS representatives have made
                 presentations at virtually all of our workshops

                 and conferences. At these meetings

                 been able to ask questions and receive   direct

                                                     , States  have

                 information from the INS. 

                                             We have to
                 to States all information provided  communicated

                                                        us by INS

                 on this and other pertinent issues

                 continue our policy of disseminating  any

                                                    , and  will

                 relevant information that we receive.


                The Department also has indicated its support

                for a legislative change to allow States to use

                a small portion of their SLIAG grants to inform

                temporary residents of the requirements for

                adjustment to lawful permanent resident status

                and of the rights and responsibilities of lawful

                temporary residents.
                under current law.     Such Use is not perri tted
..




       APPENDIX C



     TEXAS' COMMENTS

..   .. '




                                                                          APPENDIX C





                               TEXAS HEALTH AND HUMAN SERVICES
                                    COORDINATING COUNCIL

                                       311- A EAST 14TH ST.
                                       AUSTIN. TEXAS 78701



             July 18,   1989


            Mr. Richard P. Kusserow

            Inspector General

            Office of Inspector General

            Department of Health and Human
            Washington, D. C. 20201            Services

            Dear Mr. Kusserow:


            Thank you for the opportunity to review and comment on the

            entitled "Implementation of the State Legalization Impact report

            Assistance Grants Under the Immigration Reform and Control

            1986 - State of Texas.                                      Act of

            The report findings are based on a program inspection by the

            Office of Inspector General conducted in August

            SLIAG program was still in the early development, 1988 , when the

                                                                phase. Since
            then, the state agencies have developed and refined program

            rules , procedures , provider manuals, and contracts among service
            providers. Our comments thus include updated
            well a corrections of facts reported.
          information, as

            The comments correspond to the sections contained in the 

                                                                         report.
            xecutive
                                                      ecommendatio
                Page ii and page   4. The
                Administration (FSA)      finding that the Family Support
                is true.              held conferences and issued information
                           However, the timing gf the conferences and
                 issuance of information limited their usefulness.
                example , FSA held a conference in October,           For
                states in establ ishing costs for the end-of-1988, to assist
                December 31, 1988. Two months was not adequateyear reports due

                                                                  time to

                establish costs for most programs

                                                   , particularly
                programs were relying on the anticipated          since
                                                           Use of the    many

                                                                      Cost

                Documentation System , which only became available to states

                this month.   Similarly, FSA did not provide demographic data
                needed to establish end-of­

                programs until March,       year costs for public health
                                       1989.
Mr. Richard P. Kusserow

July 18, 1989

Page 3




      Page iv and page 9. The state strongly supports ' the
      recommendation that FSA reconsider its position to    OIG
                                                          classify

      certain public health services as public assistance and make

     appropriate adjustments to this position. 

                                                 The the
     believes the recommendation to be in line with  state

                                                          original

      intent of the congressional legislation implementing 

                                                            SLIAG.
Texas' Organi zational structure


    Page 3, "General. , The various categories
    are not administered by single agencies , asof SLIAG funds
                                                 indicated in the
    report. The Department of Health, the Department of Human
    Services , and the Department of Mental Health and Mental
    Retardation each administer public health assistance and
    public assistance programs under SLIAG. The Texas Education
    Agency administers the educational component of SLIAG. The
    Texas Health and Human Services Coordinating 

                                                 Council, is

    responsible for the overall state administration and

    implementation of SLIAG in Texas.

    Page 3, "Public Assistance.    The Department of Human

    Services is 
not responsible for state administrative
    functions associated with effectively implementing public
    assistance programs to be funded by SLIAG. Each of the
    heal th-related state agencies participating in SLIAG have
    programs classified as public health assistance and public
    assistance. Each agency is responsible for effectively

    implementing rules, procedures , and provider manuals for

    their respective programs.


    Department of Human Services staff in the Emergency

    Assistance Programs branch are directly responsible for the

    implementation of the City/County Pass Through and the

    ENTERP/SLIAG programs. They are also responsible for

    coordinating the overall Department of Human Services

    implementation of other SLIAG public assistance programs

    including Medicaid Heal th Care Services, Early Periodic

    Screening Diagnosis and Treatment (EPSDT) program, the
    County Indigent Health Care program, the Vendor Drug
    program, Medicaid Foster Care Assistance program, and Family
    Planning Title XIX program. The Department of Human
    Services does not, through the county structure, qrant
    benefit payments to ELAs for emergency relief. The
    will, however, work with local government agencies toagency
    SLIAG reimbursement for their expenses in serving      obtain
                                                      ELAs.
Mr. Richard P. Kusserow

July 18, 1989
Page 4




     Page 3, "Public Health Assistance.    The Department of
     Heal this not responsible for the direct  administration of
     SLIAG funds for general public health assistance.
                                                         Each of
     the health-related state agencies participating in SLIAG
     have programs classified as public health assistance and
     public assistance. Each agency is responsible for

     effectively implementing rules , procedures, and provider

     manuals for their respective programs.
Publ ic   Assistance
     Page 6, "Assistance or Service Activities.     The Texas that
     Department of Human Services public assistance   services
     are eligible for SLIAG reimbursement include Medicaid Health
     Care Services , Medicaid Foster Care Assistance program,
     Early Periodic Screening Diagnosis and Treatment 

                                                        (EPSDT)
     program , Vendor Drug program , Family Planning Title XIX
     program, the Emergency Nutrition/ Temporary Emergency Relief

     (ENTERP) pr gram, City/County Welfare Public Assistance Pass

     Through program, and the County Indigent Health Care

     program. The Department of Human Services also administers

     the Family Planning Title XX program as a public health

     program under SLIAG.


    Page 6, "Program Costs.    The Department of Human Services

    has now established multiple object expenditure codes for

    audi t purposes. The agency has also provided complete and

    detailed guidance to city and county public assistance

    agencies on how to identify ELAs , determine allowable

    program costs , and submit claims for reimbursement.

    Page 7, "Drawdown of Funds and Cash Balances.

    administers the SLIAG program on a reimbursement The state

                                                      basis

      e., funds are only drawn down once documented expenditures
    have been made. Adult education funds are disbursed on a
    thirtY-day advance basis. There are no cash balances.
                                                             The
    Coordinating Council has establ ished reimbursement/payment
    procedures for state agencies contracting with the
    The fOllowing cost documentation must accompany eachCouncil.
                                                         request
    for reimbursement:

           -   Drawdown Program Cost Summary

           -   Request for Reimbursement/Cash Management Report

           -   Self-Monitoring Checklist

           -   List of Subcontractors (associated with the drawdown)

Hr. Richard P. Kusserow

July 18 , 19

Page 5




Public Health Assistanc,


    Page 7 , "Assistance or Service Activities.

    assistance and public assistance programs at the Department

                                                 Public health

    of Health have not been correctly classified in the
    The following programs are public health assistance
    programs:                                                report.
          - Health protection

          - Health promotion/health education

          - Prevention, detection, and referral of diseases

               and disabilities

         - Ambulatory care/emergency medical services

         - Short-term institutional care

         - Long-term institutional care and alternatives

         - Health care costs and health professions

         - Statistics bureau

         - Maternal and child health

   Other public health programs have been designated as pUblic

   assistance programs for purposes of SLIAG

   These are:                                    reimbursement.
        -   Chest hospitals

        -   Chronically ill and disabled children

        -   Habilitation and rehabilitation 

        -   Health care costs and health professions (primary

                                            (kidney health care)

              care)
        - Publ ic   hospitals
        - University of Texas System professional services

        - Texas Tech Health Science Center professional

              services
       - Women, infants

                       , and children nutrition

       - Certain maternal and child health programs

  paqe S , "Assistance or Service Activities.

  should read: 

               No new programs have been addedThe
                                               because of

                                                  paraqraph

  SLIAG funding. The
                      state
  health services through itsfurnishes
                               regional traditional public

                                         public health clinics

  and contract serVices are furnished through the various

  county health departments.
. state are generally offered The samecounty
                               at the  services offered
                                             level. 
   by the

  county contracts with the department depends upon services

 rendered.                                          Whether a
 with other "local"    providers.
             Some services are also provided through contract

 Page 9 , "Program Costs.

 public health assistance      The paragraph should read: 

                             , the ratio method will be usedFor
                                                              to

                   -,




   Mr. Richard P. Kusserow

   July 18 , 1989

   Page 6




              determine costs. 

                            For public assistance programs within the
          Department of Health
                                     , actual costs will be determined.
          arrive at actual costs for the public hospital (public is

          defined as ownership by a county or city or hospital

          district), the State intends to use the fOllowing 


         For Inpatienti                                            methods:
                        - these
         information from The state  will Use
                                hospitals     cost and
                                           to obtain   expense

                                                     a daily expense
         rate.  This rate will then be used to determine the cost of
         services for an eligible legalized alien.


        ForOutpatients - The Department reimburses the billed
       amount for an outpatient visit multiplied by each hospital'

       Medicaid outpatient interim 

        Ratio of Cost to Charges" rate, often called a hospital'

       actual charges to reimburse (RCC).
                                    outpatient
                                          (The State does
 hospital services

       indicated in the report.                                   Dot Use
                                                                         , as
      The Department of Health has established and distributed
      quidelines
                 to counties for determining costs.
      Page 10 , "Drawdown of Funds .
      administers the SLIAG programandon Cash Balances.
                                          a reimbursement basis

                                                          The state

      i. e. , funds are only drawn down once documented expenditures
     have been made. Adult education funds are disbursed on a

     thirtY-day advance basis. 

                                   There are reimbursement/payment
     Coordinating Council has established     no cash balances.

     procedures for state agencies contracting with the          The
     The following cost documentation must accompany each request
     for reimbursement:
                                    Council.

           - Drawdown Program Cost
                                   Sumary Management Report

          - Request for Reimbursement/Cash
          - Self-Monitoring Checklist

             List of Subcontractors 

                                    (associated with the drawdown)

Kental Healtb


    Page 10 , "Assistance or Service Activities.

    assistance and public assistance programs at the Department



    programs:
                                                  Public health
    of Mental Health and Mental Retardation are not accurately

  . classified. The 

                               following are public health assistance


                   - Hepatitis-B screening and vaccination

                     Genetics screening

                   - Mental health program administration

                   - Central administration



                                         C-6
Mr. Richard P. Kusserow
July 18, 1989
Page 7




    Other public bealth programs bave been designated as public

    assistance programs for purposes of SLIAG

    These are:                                   reimbursement.
            - Campus-based residential treatment and habilitation

            - CommunitY-based services

           - Facility management and support

           - Community MH    centers residential services
           - Community MH    centers management and support
           - Case management services

           - Client and family support services

           - Autism services

   The agency will Use the POpulation ratio method to claim

   costs for public health assistance activities. 

   will claim costs for pUblic assistance programs Using the

                                                   The agency

   FSA Cost Documentation System when the system becomes fully

   operational and available to the 

                                      state.
   Page 10, "Assistance or Service Activities.
   apply for approval of all programs listed above The agency did
  the programs classified as public assistance
  1988 and FFY 1989 state applications.             , including
                                                , in the FFY

  activities were approved by HHS and listed
                                          The as  "
 assistance

                                               public
  programs until such time as the agency could account   for the

                                                   placeholder"
  costs of services to eligible legalized 

  intends to Use the FSA Cost Documentationaliens.
                                             System The
                                                     to

  establ ish costs 
                                     agency
                   for these programs when the system becomes

  fully operational and available to the state.


 Page 11, "Documentation of Eligible Legalized Alien Status.

 The Department of Mental Health and Mental Retardation plans

 to Use the population ratio method to claim costs for public

 bealth activities. The 

                         Use between
 that the agency distinguish of this individuals
                                     method does who
                                                 not applied

                                                      require

 under Section 245A and Section 

                                   210.
 amnesty applicants are considered eligible legalized aliens

                                      Both categories  of
 once they have received temporary resident 

                                               status.
 The agency will claim costs for public assistance programs

 using the FSA Cost Documentation System when the system

 becomes fully operational and available to the 

Page 11 , "Program Costs.
                                                  state.
                           At the
the Department of Mental Health   time
                                and    of the
                                    Mental    interviews

                                           Retardation was

uncertain about how to identify and document SLIAG-related

costs for mental bealth programs in the public assistance

category. The description of program costs in the report

Mr. Richard P. Kusserow

July 18, 1989
Page 8




       applies to the usual procedure for disbursement of state

       funds to community MH centers,   and n2 to  SLIAG '
       reimbursement procedures.
       The agency intends to claim costs for public assistance
       programs using the FSA Cost Documentation System when the
       system becomes fully operational and available to the state.
       The statement that modifications will not be made to the

       accounting system is incorrect. The state agencies

       participating in the SLIAG program account for SLIAG-related

       reimbursements under distinct internal cost centers or

       program activity codes.


       Page 11, "Administrative Costs. The statement regarding
       administrative costs is correct as it applies to program
       administrative costs under public health activities.
       this time the agency does not identify SLIAG administrative
       costs.  The agency may claim administrative costs related to
       use of the FSA Cost Documentation System.

Education
    Page 12, "Documentation of Eligible Legalized Alien Status.
    The normal enrollment process will be used to identify
    eligible legalized aliens entering elementary and secondary
    schools. In  SLIAG adult education classes, the adult
    education directors will request documentation of resident
    status and will accept students with I-688A or 1-688 cards.
    Adult education directors will only request SLIAG
    reimbursement for costs incurred by students who have
    temporary resident status, i. e., students with 1-688 cards.


    The Texas Education Agency reduced the estimated numbers of
    eligible legalized aliens in elementary and secondary
    schools for purposes of estimating costs in the FFY 1988
    state application at the request of the FSA. The reason for
    the reduction was 
 not because the services were not needed
    by eligible legalized alien students in elementary and

    secondary schools. Rather, most school districts could not

    meet the FSA requirement that school districts identi fy 500

    students or 3 percent of the student population as el ig ible
    legalized aliens 
 and the requirement that no eligible
    legalized alien student who had received more than three
    years of educational instruction in u. S. schools be counted
    toward the 500 student/3 percent threshold requirements.
    Four school districts qualify for SLIAG reimbursement for
    FFY 1988 and FFY 1989.
Mr. Richard P. Kusserow

July 18, 1989

Page 9




     Texas has enrolled approximately 111, 000 eligible legalized
     alien students in adult education classes as of March, 1989.
     Page 12, "Program Costs.   The description of program costs

     for elementary and secondary school students is basically
     correct.  Since the average cost per year of education for
     eligible legalized aliens at the elementary and secondary
     levels exceeds the $500 average limit, school districts will
     request $500 per eligible student.

     The average cost of education for adults varies by region of
     the state and depends on local costs for teacher salaries,
     materials and supplies, and other related costs of service.
     Page 13, nDrawdown of Funds and Cash Balances.   The
     procedures outlined for drawdown of funds accurately
     describe the Texas Education Agency policy for reimbursement
     under the Adult Basic Education program. This procedure for
     disbursement of SLIAG funds was under consideration at the

     time of the August interviews, but was not the established

     funds distribution policy of the Council. In December,
     1988, the FSA sanctioned the advance of funds equal to
     thirty-days anticipated disbursements for the cost of
     education services. The Texas Education Agency adjusts each
     adul t education cooperative' s request for thirty-days
     advance funds based on the previous month' s actual cost
     documentation. There are no cash balances.
Cross-Cutting Issues
    Page 13. 'The state concurs with the  inding that the
    lateness in issuing the final regulations has caused
    problems for the state in implementing SLIAG. The FSA
    issued a policy change in september, 1988, to permit service
    contracted providers to claim costs of services for the
    period before the issuance of federal regulations provided
    that costs are fully documented and reasonable, allowable,
    and allocable to SLIAG. However, providers continue to have
    difficulty identifying and documenting costs for the period
    before the issuance of the federal regulations.
    Page 14. The state strongly supports the recommendation

    that the FSA grant process be made more orderly, including

    the development of an appeals process to use if program or

    costs associated with providing services are denied in the

    initial application process.

..                                                                , "


 '1i




        Mr. Richard P. Kusserow

        July 18, 1989

        Page 10




               Page 15. The state endorses the recommendation for the FSA

               and the INS to clarify what. is meant by "
               widely disseminate this information to the public
                                                            alien charge" and
                                                                   population
               who have raised concerns about resident status.

       Two of the stated purposes of the inspection were to identify

       potential problems early in the process and to identify good

       practices which could be shared with all states. 

       agrees with the intent of these purposes and wishesThe state

                                                            that the
       results of the inspection could have been accomplished much
       earlier.  Problems continue to be identified by the state and by
       FSA, leading to delays in claiming FY 1988 

       practices" from other states have yet to be costs.
                                                    shared Also   good of

                                                           in any kind
       useful format.


       Again ,   we appreciate the opportunity to provide comments.
                                                                  If you

       need further clarification or information, please contact me or

       Marguerite Rivera directly at, (512)
                                              463-2195.
       Sincerely,
                       ff'l
       Patrice Thomas

       Executive Director


       cc:	   Governor William P. Clements

              Lieutenant Governor William     Hobby

              Speaker Gib Lewis

              Representative Debra Danburg

              Polly Sowell

              Gloria ROdriguez

